March 24, 2004

MEMORANDUM FOR:               ANN L. COMBS
                              Assistant Secretary
                               for Employee Benefits Security



FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General
                               for Audit

SUBJECT:                      Audit of EBSA’s Participant
                               and Compliance Assistance Program
                              Audit Report No. 09-04-001-12-121

The Office of Inspector General (OIG) has completed an audit of the Employee Benefits Security
Administration’s (EBSA) Participant and Compliance Assistance Program. Our objectives were
to determine if EBSA's Participant and Compliance Assistance Program provided information
and assistance timely and accurately, and reported performance data, including benefit
recoveries, accurately for fiscal year (FY) 2002 (October 1, 2001 through September 30, 2002).

Our tests of nationwide statistically sampled inquiries and benefit recoveries from FY 2002 in
eight EBSA regional offices and the National Office disclosed no significant problems.
Specifically, we concluded that:

   •   EBSA provided information and assistance timely and accurately, and
   •   Reported performance data was reasonably accurate.

While our tests disclosed some instances of non-compliance with program requirements, the
instances were not statistically significant. Accordingly, we make no recommendations.

Background

EBSA’s Office of Participant Assistance administers the Participant and Compliance Assistance
Program (Program). The Office of Participant Assistance’s mission is to provide quality service
to EBSA’s customers through outreach, education, and technical assistance. EBSA provides this
technical assistance primarily in response to inquiries, including telephone contacts, letters (from
the public, Congress, etc.), emails, and walk-ins. EBSA tracks the results of inquiries through
resolution, including benefit recoveries. Two information systems capture data for this
performance reporting. One system, the Technical Assistance Information System (TAIS),
captures information on all inquiries except written inquiries to the National Office. A separate
system, the Correspondence Tracking System (CTS), captures information on written inquiries to
the National Office.
EBSA has established specific goals for the Program. These specific Program goals are to
respond to 99 percent of telephone and walk-in inquiries by the next business day, and to
respond to 90 percent of written inquiries within 30 days. EBSA also establishes a monetary
goal each year for benefit recoveries. For 2002, the goal was to achieve $67 million in benefits.

In FY 2002, the Participant Assistance and Compliance Program cost about $9.3 million and
included 108 staff years. These staff years consisted of 89 benefit advisors, 13 benefit advisor
supervisors, and 6 National Office staff personnel. In FY 2002, EBSA staff handled over
192,000 inquiries and recovered $48 million for participants and beneficiaries through informal
resolution of benefit complaints. In FY 2003, EBSA's benefit advisors responded to over
173,500 inquiries and recovered $82.9 million for participants and beneficiaries.

Scope and Methodology

The audit covered FY 2002 (October 1, 2001, through September 30, 2002). Our methodology
included reviewing EBSA Program policies, procedures and performance reports; interviewing
EBSA national and regional Program staff; and analyzing and testing EBSA’s Program systems,
data, and quality control/monitoring activities. Our audit methodology, including statistical and
non-statistical sampling approaches, is detailed in the Appendix.

We conducted fieldwork from June 2002 to August 2003. The audit was conducted in
accordance with Government Auditing Standards issued by the Comptroller General of the
United States.

Audit Results

While our tests disclosed some instances of non-compliance with program requirements, the
instances were not statistically significant.

TAIS Inquiries Statistical Sample

From our statistical sample of 260 TAIS inquiries at the National Office and the 7 regional
offices, we identified 5 telephone inquiries that did not have sufficient documentation for us to
determine the nature of the inquiry or the response given (See Exhibit 1).

Using these five inquiries, we statistically projected the number of additional telephone inquires
that could potentially have insufficient documentation. We are 90 percent confident that no
fewer than 1,241 inquiries and no more than 8,027 inquiries out of a total population of 192,170
inquiries (telephone, written, walk-in, and e-mail) could potentially have insufficient
documentation. These numbers are not statistically significant.

Benefit Recoveries Statistical Sample

From our statistical sample of 316 benefit recoveries at the National office and 5 regional
district, we identified:




                                                 2
               6 where the amount documented for the recovery was incorrect,
               18 that did not properly confirm the benefit received with the participant, and
               1 that was not fully documented (See Exhibit 1).

Using the errors noted above, we are 95 percent confident that:

               Between 0 and 65 benefit recoveries may have incorrect benefit recovery
               amounts,
               Between 122 and 218 benefit recoveries may not have been confirmed with the
               participant, and
               Between 0 and 25 benefit recoveries may not have been fully documented.

These numbers are not statistically significant.

EBSA’s Response to the Draft Report

EBSA was pleased with the overall audit results. However, EBSA disagreed that any of the
inquiries were not sufficiently documented, since EBSA’s policy did not require a detailed
explanation for “information only” inquiries. Also, EBSA stated that it had been conservative in
estimating recovery amounts, and pointed out that not all recoveries needed to be confirmed with
participants. EBSA also identified an inconsistency in the draft report, which we have corrected.

EBSA’s entire response is attached as Appendix 2 to this report.


                                       ****************




                                                   3
                                                                              Exhibit 1


                     Details of Statistical Testing
               FY 2002 Inquiries and Benefit Recoveries

                                     INQUIRIES

                        Telephone       Written       Walk-In         Total
  Sample Size              180           70             10             260
  Met Initial
                           180               70          10            260
  Contact Standard
  Cases Completed
                           180               70          10            260
  Timely (1)
  Supporting
  Documentation            175 (2)           70          10            255
  Complete
  Benefit Advisor
  Response                 175 (2)           70          10            255
  Appropriate

(1) To evaluate timeliness, we reviewed the case file and evaluated whether the benefit
    advisors actions appeared timely in relation to the inquiry.

(2) Five telephone inquiries did not have sufficient documentation for us to determine the
    nature of the inquiry or the response given.




                                         4
                             BENEFIT RECOVERIES

                           Telephone          Written        Walk-in       Total
Sample Size –
                               236                  70         10          316(1)
Total 316(1)
Recovery Properly
                               221 (2)              67 (2)     10           298
Confirmed
Correct Benefit
                                230 (3)             70         10           310
Recovery Amount
Benefit Recovery
Properly                        235 (4)              70        10           315
Documented


(1)
      Sample from Technical Assistance Information System is 300.
      Sample from Correspondence Tracking System is 16.
(2)
      Of the 316 benefit recoveries tested, 18 were not confirmed directly with the
      participant. This confirmation is a program requirement. We confirmed all 18 with
      the participants and found no errors.
(3)
      In six cases, we did not agree with the benefit recovery amount that EBSA recorded.
      In five of the six cases, EBSA did not record medical benefit payments obtained for
      the participant as benefit recovery amounts. This caused benefit recovery amounts to
      be understated. In the remaining case, EBSA recorded the entire amount of a pension
      benefit as a recovery although the participant obtained most of it before EBSA
      became involved. EBSA agreed and immediately changed the recovery amount.

      The amounts for each of these six cases are:

                                    Amount
                                 Over (Under)
                                    Reported
                                       $    (600)
                                         (25,000)
                                            (300)
                                          (1,150)
                                            (832)
                                            6,009
(4)
      In the one case where benefit recovery was not properly documented, the case file did
      not contain sufficient information for us to determine if the benefit recovery
      determination and amount were appropriate.



                                          5
                                                                                     APPENDIX

                                      AUDIT METHODOLOGY

Our methodology included reviewing EBSA Program policies, procedures and performance
reports; interviewing EBSA national and regional Program staff; and analyzing and testing
EBSA’s Program systems, data, and quality control/monitoring activities.

To determine if EBSA provided information and assistance timely and accurately, we first
identified 184,851 inquiries in the TAIS database for FY 2002. We sorted and reviewed the
inquiry database to identify potential duplicate inquiries. We then used a stratified random
sampling design with the type of inquiry (telephone, e-mail, written, etc.) as the strata. We
selected random samples from all strata using a 95 percent confidence level and a +/- 5 percent
sampling precision. This produced 230 sample inquiries for audit.

We then identified an additional 7,319 inquiries in the CTS that EBSA received in 2002. We
sampled these inquiries using a simple random sampling design with a 95 percent confidence
level and +/- 5 percent sampling precision. This produced an additional 30 inquiries for a total
sample size of 260 inquires.

For each sampled inquiry we obtained the TAIS and CTS information as well as any EBSA file
documentation. We examined each inquiry and determined if EBSA met response standards,
whether the information provided to the inquirer was accurate, and whether the inquiry case was
resolved timely.

We also used this same sample to determine if EBSA reported performance data related to
inquiries accurately. We ensured that each inquiry was valid and that there was support for the
total reported.

To determine if the Program reported performance data related to benefit recoveries accurately,
we performed several analyses. First, to examine the accuracy of the 2,732 benefit recoveries
recorded in the TAIS database, we used a stratified 2-stage cluster sampling design. We stratified
EBSA field offices into three separate strata according to the total benefit amount recovered.
Then we randomly selected six offices from these three strata. From each selected office, we
randomly sampled 50 recoveries for a sample size of 300 recoveries. This sample design was
selected to yield a sampling precision of +/- 5 percent at a 95 percent confidence level.

Additionally, the CTS database included 33 benefit recoveries. To test the accuracy of these
benefit recoveries, we selected every other recovery for testing. With these additional 16 benefit
recoveries, our total sample size was 316 benefit recoveries.

For each benefit recovery sampled, we reviewed the supporting documentation and determined if
the reported recovery met EBSA’s criteria for reporting a recovery and whether the amount
reported was accurate and supported. Where necessary, we contacted participants and
beneficiaries to verify benefit recoveries.




                                                6
To test our samples, we visited the EBSA National Office in Washington, D.C., and visited or
obtained data from the following offices:

                      Inquiries                                   Benefit Recoveries

                      Atlanta                                     Boston
                      Boston                                      Dallas
                      Chicago                                     D.C - National Office
                      Dallas                                      Kansas City
                      D.C. – National Office                      Los Angeles
                      Kansas City                                 San Francisco
                      Philadelphia
                      San Francisco




                                               7
